BECKER GALLAGHER
Briefs

and

DONNA). WOLF, J.D.
JULIE

Records

A. KERSHNER, ).D.

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief in Opposition in 19-767, National
Association for Gun Rights, Inc. v. Jeff Mangan, in his
capacity as Montana's Commissioner of Political
Practices, et al., was sent via Three Day Service to the
U.S. Supreme Court, and 3 copies were sent via Three
Day Service and e-mail to the following parties listed
below, this 27th day of April, 2020:
David Alan Warrington
Kutak Rock LLP
1625 Eye Street
Suite 800
Washington, DC 20006
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioner
Matthew T. Cochenour
Counsel of Record
Office of the Montana Attorney General
215 North Sanders Street
Helena, MT 59601
(406) 444-2026
mcochenour2@mt.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 27, 2020.

DonnaJ. Wol~
cl'\
Becker Gallagher Legal P~lislling, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

